UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-2113
Donald Henderson Scott and Carolyn Yvonne Scott
Appellants
v.
U.S. Bank National Association as Trustee, for Bayview Financial Mortgage Pass-Through
Certificates, Series 2005, et al.
Appellees

Appeal from U.S. District Court for the Western District of Missouri - Kansas City
(4:19-cv-00308-DGK)

ORDER
The petition for rehearing by the panel is denied.
September 13, 2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-2113 Page: 1

Date Filed: 09/13/2019 Entry ID: 4830403

